=>
|

OCKLE

2311 Douglas Street A . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B t a fs contact@cocklelegalbriefs.com
st. 19
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

ASHLEY MERE HOWARD,
Petitioner,
Vv.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6774 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of August, 2021.
{am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepte. 0. Laas On tean-h, Ohly

Affiant

  

& GENERAL NOTARY-State of Nebraska
RENEE J. GOSS:
amet hema My Comm. Exp. Soptember 5, 2023

    
     

Notary Public 41245
